               United States Department of the Interior
                                 Office of Inspector General
                                      Washington, D.C. 20240

                                                                                    May 14, 2004



The Honorable Tom Daschle
Senate Minority Leader
United States Senate
Washington, DC 20510-4103

Dear Senator Daschle:

       This is in response to your November 10, 2003 letter in which you requested that the
Office of Inspector General (OIG) investigate the U.S. Fish and Wildlife Service’s (FWS)
decision to remove scientists from a team involved in formulating a new biological opinion on
the management of water flow of the Missouri River.

        Your letter expressed concern about FWS’ decision to replace team members sho rtly
before the new biological opinion was due. You also expressed concern about whether the new
team of FWS scientists, having limited knowledge of this issue, would be disadvantaged in its
evaluation and amendment of the 2000 biological opinion.

        We interviewed all key individuals involved – including the Assistant Secretary for Fish
and Wildlife and Parks, the Director of FWS, as well as the former and newly-appointed team
members – and reviewed dozens of pertinent documents. Because the OIG has neither the
expertise nor the authority to impose its judgment on the final biological opinion, we focused on
the process and the people involved as the revised biological opinion was developed and
finalized.

        In summary, our investigation determined that the existing FWS team had reached an
impasse with the U.S. Army Corps of Engineers (Corps). To resolve this impasse, the Assistant
Secretary for Fish and Wildlife and Parks, in consultation with the FWS Director, selected two
new co-chairs for the team. The new co-chairs were permitted to freely choose their new team
members, including members from the previous team. The Assistant Secretary directed the co-
chairs to (1) follow the science, (2) consider the process as more important than the outcome, and
(3) make sure the process is open and transparent. In the end, the new biological opinion –
which was not substantially different from the 2000 opinion – was completed, approved
internally and released to the Corps within the prescribed timeframe.

       Specifically, the Corps is responsible for the management of the Missouri River. Under
the Endangered Species Act of 1973, the Corps must consult with FWS to ensure that any
proposed action by the Corps does not jeopardize the existence of any endangered or threatened
species. In November 2000, FWS issued a biological opinion to the Corps on the Operation of
the Missouri River Main Stem Reservoir System, Operation and Maintenance of the Missouri
River Bank Stabilization and Navigation Project, and Operation of the Kansas River Reservoir
System. The FWS 2000 opinion stated that the Corp’s proposed actions would jeopardize the
endangered least tern and the pallid sturgeon as well as the threatened piping plover. As required
by the Act, FWS provided a reasonable and prudent alternative (RPA) to the Corps to prevent
further harm to these species. The Corps accepted the RPA presented in the 2000 biological
opinion.

        On November 3, 2003, the Corps requested a formal consultation with FWS, pursuant to
the Endangered Species Act, based on new information on mortality rates and the creation of
habitats for these species. This new information was derived from a 2001 international study,
which found that the piping plover and least tern populations exceeded the recovery goals for the
Missouri River but the pallid sturgeon population was declining. The FWS team did not concur
with the Corp’s proposed actions to resolve the declining population problem for the pallid
sturgeon. The FWS team was required to issue a biological opinion on this additional
information to the Corps by December 15, 2003.

       The Corps and the FWS team disagreed with the others’ proposed actions and reached an
impasse in the fall of 2003. To resolve the matter and meet the December deadline the Assistant
Secretary, Fish and Wildlife and Parks, announced in an October 29, 2003 memorandum that he
would establish a new team of scientists to complete the 2003 biological opinion. The Assistant
Secretary selected two FWS regional directors to co-chair the new team.

        Our investigation revealed that the regional directors freely chose new team members and
retained select members of the original team. The new 13- member team included 6 members of
the original team. According to both regional directors, the Assistant Secretary gave them
minimal guidance and maximum latitude in conducting the assignment. The Assistant Secretary
told them to “follow the science wherever it leads.” In addition to the regional directors, other
team members we interviewed said they were not informed of any desired or pre-determined
outcome regarding the biological opinion. In fact, the individuals at the working levels denied
feeling pressure at all. Based on our experience in past investigations, these individuals would
have been the most likely sources to provide evidence of such influence. In addition, the
Department of the Interior’s Science Advisor, who was aware of the decision to replace team
members, opined that changing the team members did not violate any standards of scientific
ethics.

         Since the disagreement between FWS and the Corps had been aired quite publicly and the
deadline for the new opinion was fast approaching, suspicions about the Assistant Secretary’s
decision to replace the scientists were not, at the time, entirely unfounded. Furthermore, the
name selected for the new team of experts was “wise guys.” While it may have been chosen to
reflect the extensive experience and expertise of the team’s members, the term “wise guys,” in
hindsight, contributed to the specter of suspicion.
       Our investigation, however, found no evidence to suggest the Assistant Secretary’s
decision to remove scientists was made for any reason other than to resolve the stalemate
between the Corps and FWS; no evidence that the Assistant Secretary attempted to influence the
team members in any way; and no evidence that the team co-chairs and members perceived any
undue influence or political pressure.

       If you have any questions, please do not hesitate to call me at 202-208-5745.

                                            Sincerely,




                                            Earl E. Devaney
                                            Inspector General
